                                                       NATIONAL SCIENCE FOUNDATION
                                                        OFFICE OF INSPECTOR GENERAL
                                                         . OFFICE OF INVESTIGATIONS

                                                     CLOSEOUT MEMORANDUM

 Case N umber:            -A4mtl4tt~:5"'"                                                   Page 1 of 1
                                            001.6·


          This case was opened under a proactive review ofREU grants. A small amount of copied text l was
          identified, however, a further review indicates that the amount of text was de minimus and was·
          material describing the PIs ara of research interest. Based on our analysis, no further action was
          warranted.     Accordingly, this case is closed.                                               '




NSF OIG FOl1n 2 (ll/0~)
